10
APPENDIX TO THE PETITION FOR A WRIT
OF CERTIORARI

TABLE OF CONTENTS

Opinion, United States Court of Appeals for the United State Court of Appeals
For the Fifth Circuit, October 5, 2020

App. la

Case: 20-10252

V

iment: 00515589744

Page: 1

'

e Filed: 10/05/2020

Id.

®mteb States Court of Appeals
for tfje jfiftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
October 5, 2020

No. 20-10252
Summary Calendar

Lyle W. Cayce
Clerk

Samuel T. Russell,
Plaintiff—Appellant,
versus
State of Texas,
Defendant—Appellee.

Appeals from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CV-334

Before Clement, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:*
Samuel T. Russell filed a civil action under 42 U.S.C. § 1983 against
the State of Texas in which he claimed that Child Protective Services engages
in various illegal practices. Russell now appeals from the district court’s
grant of the State’s motion to dismiss his pro se civil action for lack of subject-

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-10252

D

iment: 00515589744

Page: 2

r

3 Filed: 10/05/2020

II
No. 20-10252

matter jurisdiction, pursuant to Federal Rule of Civil Procedure 12(b)(1).
The district court determined that Russell’s claims against the State of Texas
were barred under the Eleventh Amendment.
We review de novo the legal issues underlying a district court’s grant
of a Rule 12(b)(1) motion to dismiss. Zephyr Aviation, L.L.C. v. Dailey, 247
F.3d 565,570 (5th Cir. 2001). Likewise, we review an Eleventh Amendment
immunity determination de novo. Hale v. King, 642 F.3d 492,497 (5th Cir.
2011).
“Federal court jurisdiction is limited by the Eleventh Amendment
and the principle of sovereign immunity that it embodies.” Vogtvof
Comm’rs of Orleans Levee Dist., 294 F.3d 684, 688 (5th Cir. 2002). “The
Eleventh Amendment bars an individual from suing a state in federal court
unless the state consents to suit or Congress has clearly and validly abrogated
the state’s sovereign immunity.” Perez v. Region20Educ. Serv. Ctr., 307 F.3d
318, 326 (5th Cir. 2002). “Texas has not consented to be sued in federal
court by resident or nonresident citizens regarding its activities to protect the
welfare of children, nor has state sovereign immunity been eviscerated by
Congress with the passage of section 1983.” Stem v. Aheam, 908 F.2d 1, 4
(5th Cir. 1990).
The crux of Russell’s argument on appeal is that the wording of the
Eleventh Amendment does not preclude suits against a State by its own
citizens. Even if Russell’s text-based argument is not entirely without
foundation, it is unavailing. “While the Amendment by its terms does not
bar suits against a State by its own citizens, [the Supreme] Court has
consistently held that an unconsenting State is immune from suits brought in
federal courts by her own citizens as well as by citizens of another State.”
Edelman v. Jordan, 415 U.S. 651,662 (1974). Thus, as we have stated, “[t]he
Eleventh Amendment bars private citizens from bringing suit against a state

2

Case: 20-10252

D

ment: 00515589744

Page: 3

T

Filed: 10/05/2020

fc
No. 20-10252

in federal court, unless the suit fails within” a “narrow exception” to the
Eleventh Amendment. McKinley v. Abbott, 643 F.3d 403,405 (5th Cir. 2011).
The exception, which is not applicable here, allows a private citizen to sue an
individual in federal court for prospective injunctive relief based on
allegations that a state official violated federal law; however, it does not apply
to claims brought against the state or state agency. Perez, 307 F,3d at 332 n.7.
In view of the foregoing, the judgment of the district court is
AFFIRMED.

3

Case 3:19-cv-00334-C

T Document 16 Filed 02/10/20

gel of 2 PagelD 117

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION

SAMUEL T. RUSSELL,
Plaintiff,
v.
STATE OF TEXAS,
Defendant.

)
)
)
)
)
)
>
)

)

Civil Action No. 3:19-CV-0334-C-BT

ORDER
Before the Court are the Findings, Conclusions, and Recommendation of the United
States Magistrate Judge therein advising the Court that Defendant’s Motion to Dismiss should be
granted and that Plaintiffs claims should be dismissed for lack of subject-matter jurisdiction.1
The Court conducts a de novo review of those portions of the Magistrate Judge’s report or
specified proposed findings or recommendations to which a timely objection is made. 28 U.S.C.
§ 636(b)(l )(C). Portions of the report or proposed findings or recommendations that are not the
subject of a timely objection will be accepted by the Court unless they are clearly erroneous or
contrary to law. See United States v. Wilson, 864 F.2d 1219,1221 (5th Cir. 1989).
After due consideration and having Conducted a de novo review, the Court finds that
Petitioner’s objections should be OVERRULED. The Court has further conducted an
independent review of the Magistrate Judge’s findings and conclusions and finds no error. It is
therefore ORDERED that the Findings, Conclusions, and Recommendation are hereby
ADOPTED as the findings and conclusions of the Court. For the reasons stated therein,
Plaintiff filed objections to the report and recommendation on February 4, 2020.

Case 3:19-cv-00334-C

'r Document 16 Filed 02/10/20

ge 2 of 2 PagelD 118

Defendant’s Motion to Dismiss is hereby GRANTED pursuant to Federal Rule of Civil
Procedure 12(b)(1) and Plaintiff s claims are DISMISSED without prejudice for lack of
subject-matter jurisdiction.2
SO ORDERED this

to

ii
day of February, 2020.

'/
{

V SAfCl/R. Cli^INGS

7 IF

SENIOR UNITED STATES DISTRICT JUDGE
(

2 “When an action is dismissed for lack of subject matter jurisdiction, it is normally done without
prejudice... .” Flores v. Dretke, 2004 WL 238048, at * 1 (N.D. Tex. Jan. 9, 2004).

Case 3:19-cv-00334-r j Document 14 Filed 01/21/20

igelof7 PagelD83

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
SAMUEL T. RUSSELL,
Plaintiff,
v.

Case No. 3:i9-cv-00334-C-BT

STATE OF TEXAS,
Defendant.
FINDINGS, CONCLUSIONS, AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
Before the Court in this pro se civil rights action is Defendant the State of
Texas’s Motion to Dismiss under Rules 12(b)(1) and 12(b)(6) (ECF No. 6). For the
reasons stated, Defendant’s Motion should be GRANTED, and Plaintiffs claims
should be DISMISSED under Rule 12(b)(1) for lack of subject-matter jurisdiction.
Background
Plaintiff alleges the Texas Department of Family and Protective Services
(FPS) violated the law in obtaining an order authorizing an investigation of child
abuse or neglect of his children and a subsequent order appointing FPS temporary
custodian of one of his children. Compl. 4-5, 7-9 (ECF No. 2); Pl.’s Ex. A, B.
Plaintiffs claims appear to rely primarily on the argument that these court orders,
issued in the District Court of Dallas County and bearing a judge’s signature and
date, are forged or otherwise inauthentic. See Compl. 4-5,7-9. Plaintiff purportedly

1

Case 3:19-cv-00334-r 'T Document 14 Filed 01/21/20

ige 2 of 7 Page ID 84

brings his claims under 42 U.S.C. §§ 1983,1985, and 1986 (id. at 1), but he fails to
specifically allege a violation of his constitutional rights. He does, however, also
assert that FPS should be found in violation of Federal Rule of Evidence 901, 18
U.S.C. §§ 1621 and 1203, and 25 C.F.R. §§ 11.404 and 11.448. Id. at 3-9. Plaintiff
seeks monetary damages in the amount of $750,000 with pre- and post-judgment
interest, recovery of the cost of filing his complaint, certain changes to be made to
FPS policy, and a 30-day injunction “for every child Texas [FPS] has taken in the
past 6 months [,] using [the practices he complains of, to] be returned to their
families] . . . giving the parents/guardians time to verify the authentication of all
court order documents that do not [meet certain requirements].” Id. at 10-12.
Defendant timely filed the instant Motion to Dismiss. The Motion is fully briefed
and ripe for determination.
Legal Standard
A motion to dismiss under Rule 12(b)(1) challenges a federal court’s subjectmatter jurisdiction. Fed. R. Civ. P. 12(b)(1). “If the court determines at any time
that it lacks subject-matter jurisdiction, the court must dismiss the action.” Fed. R.
Civ. P. 12(h)(3). “A case is properly dismissed for lack of subject matter jurisdiction
when the court lacks the statutory or constitutional power to adjudicate the case.”
Home Builders Ass’n of Miss., Inc. v. City of Madison, 143 F.3d 1006, 1010 (5th
Cir. 1998) (quotation marks and citation omitted). The Court “must presume that
a suit lies outside [its] limited jurisdiction, and the burden of establishing federal
jurisdiction rests on the party seeking the federal forum.” Howery v. Allstate Ins.
2

Case 3:19-cv-00334-r 'T Document 14 Filed 01/21/20

age 3 of 7 PagelD 85

Co., 243 F.3d 912, 916 (5th Cir. 2001) (citations omitted). The party asserting
jurisdiction must allege the jurisdictional basis “affirmatively and distinctly”; it
cannot be “established argumentatively or by mere inference.” III. Cent. GulfR.R.
Co. v. Pargas, Inc., 706 F.2d 633, 636 (5th Cir. 1983) (citations omitted). When a
Rule 12(b)(1) motion is filed in conjunction with other Rule 12 motions, the court
should consider the jurisdictional attack before addressing any attack on the
merits. Ramming v. United States, 281 F.3d 158,161 (5th Cir. 2001) (per curiam).
The Fifth Circuit recognizes two types of challenges to a federal court’s
subject-matter jurisdiction—“facial” attacks, which are based solely on the
pleadings, and “factual” attacks, which are based on affidavits, testimony, and
other evidentiary material. See Paterson v. Weinberger, 644 F.2d 521, 523 (5th
Cir. 1981); see also Ramming, 281 F.3d at 161 (“Lack of subject matter jurisdiction
may be found in any one of three instances: (1) the complaint alone; (2) the
complaint supplemented by undisputed facts evidenced in the record; or (3) the
complaint supplemented by undisputed facts plus the court’s resolution of
disputed facts.”) (citation omitted)). Whether the attack is facial or factual,
however, the plaintiff seeking a federal forum “constantly bears the burden of proof
that jurisdiction does in fact exist.” Ramming, 281 F.3d at 161 (citation omitted).
When a defendant files a Rule 12(b)(1) motion to dismiss without
evidentiary materials supporting it, the attack is facial, and the Court need only
consider the sufficiency of the allegations in the plaintiffs complaint. Paterson,
644 F.2d at 523. Here, the State filed the Motion to Dismiss unaccompanied by
3

Case 3:19-cv-00334-C

Document 14 Filed 01/21/20

je 4 of 7 PagelD 86

exhibits or appendices, thus making a “facial” attack on the Court’s subject-matter
jurisdiction.
Analysis
Plaintiffs claims, including any claims under §§ 1983, 1985, or 1986, are
barred by the Eleventh Amendment. The Eleventh Amendment precludes an
individual from suing a state or its agencies, such as FPS, unless the state consents
to the suit or Congress has “clearly and validly abrogated the state’s sovereign
immunity.” Perez v. Region 20 Educ. Serv. Ctr., 307 F.3d 318,326 (5th Cir. 2002).
Congress has not abrogated sovereign immunity for §§ 1983,1985, or 1986 claims.
Quern v. Jordan, 440 U.S. 332, 338 (1979); Affiliated Profl Home Health Care
Agency v. Shalala, 164 F.3d 282, 286 (5th Cir. 1999) (per curiam). And Texas has
not waived its Eleventh Amendment sovereign immunity with respect to such
claims. See Walker v. Livingston, 381 F. App’x 477, 479 (5th Cir. 2010) (per
curaim) (citing Sherwinski v. Peterson, 98 F.3d 849, 851-52 (5th Cir. 1996)).
Moreover, Congress has not abrogated, and Texas has not waived, immunity for
claims under federal criminal statutes or under the Federal Rules of Evidence.
Indeed, there is no private cause of action for violations of either. Pierre v. Guidry,
75 F. App’x 300, 300 (5th Cir. 2003) (per curiam) (federal criminal statutes);
Hunter v. Martinez, 2008 WL 3895969, at * 2 (N.D. Tex. Aug. 20, 2008) (federal
criminal statutes); In re Madison Guar. Sav.&LoanAss’n, 173 F.3d 866,869 (D.C.
Cir. 1999) (Federal Rules of Evidence). The Eleventh Amendment bar is
jurisdictional, and it applies regardless of the nature of the relief sought. Pennhurst
4

Case 3:19-cv-00334-C

Document 14 Filed 01/21/20

je 5 of 7 PagelD 87

State Sch. & Hosp. v. Halderman, 465 U.S. 89, 100 (1984); see also Wauson v.
Tex. Dep’t ofFamily & Protective Servs., 2008 WL11419033, at *2 (W.D. Tex. July
28, 2008) (dismissing § 1983 claims against FPS for lack of subject matter
jurisdiction under Federal Rule of Civil Procedure 12(b)(1) as barred by Eleventh
Amendment sovereign immunity); Wernecke v. Tex. Dep’t of Family & Protective
Servs., 2008 WL 11464762, at *1 (S.D. Tex. Jan. 30, 2008) (same).
Plaintiff also appears to seek private enforcement of (1) Federal Rule of
Evidence 901, which provides that items introduced into evidence at trial must be
authenticated and lists items that are self-authenticating; (2) 18 U.S.C. §§ 1621 and
1203, which are federal criminal statutes stating the elements for the crimes of
perjury and hostage taking, respectively; and (3) 25 C.F.R. §§ 11.404 and 11.448,
which proscribe false imprisonment and abuse of power, respectively, in certain
Indian tribes. But the Eleventh Amendment bars all Plaintiffs claims, as Congress
has not abrogated sovereign immunity with respect to them, and there is no
indication Defendant has consented to suit. The Court thus lacks subject-matter
jurisdiction.
This suit is similar to, and was filed almost simultaneously with, another suit
Plaintiff brought in this Court based on the same incident concerning Plaintiffs
children. Indeed, on February 20, 2019, days after filing his February 11, 2019
complaint initiating this case, Plaintiff filed a complaint, purportedly brought
under § 1983, seeking that the Texas Education Agency be found in violation of,
among other laws, 18 U.S.C. § 1203 and 25 C.F.R. §§ 11.404 and 11.448. See
5

Case 3:19-cv-00334-C

Document 14 Filed 01/21/20

je 6 of 7 PagelD 88

Document No. 3 at 7, 11, 14-15, Russell v. Texas, No. 3:i9-cv-oc>430-S-BN. The
Court, however, dismissed Plaintiffs claims for lack of subject-matter jurisdiction
on sovereign immunity grounds. Russell, 2019 WL 4757776, at *2-3 (N.D. Tex.
Aug. 23,2019), rec. adopted, 2019 WL 4749977 (N.D. Tex. Sept. 30, 2019). Indeed,
in his findings, conclusions, and recommendation of dismissal, the magistrate
judge described the principles of sovereign immunity and advised that against
those principles, “Mr. Russell’s lawsuit must be dismissed for lack of subject matter
jurisdiction.” Id. Over Plaintiffs objection that the federal court should exercise
jurisdiction, the district court accepted the findings, conclusions, and
recommendation of the magistrate judge and dismissed Plaintiffs claims. Russell,
2019 WL 4749977. Because the principles of sovereign immunity apply equally
here as they did in Plaintiffs prior suit, the same outcome, dismissal, is warranted.
Recommendation
For the foregoing reasons, Defendant’s Motion should be GRANTED, and
Plaintiffs claims should be DISMISSED under Rule 12(b)(1) for lack of subjectmatter jurisdiction.
SIGNED January 21, 2020.

REBECCA RUTHERFORD
UNITED STATES MAGISTRATE JUDGE

6

Case 3:19-cv-00334-C

Document 14 Filed 01/21/20

je7of7 PagelD 89

INSTRUCTIONS FOR SERVICE AND
NOTICE OF RIGHT TO APPEAL/OBJECT
The United States District Clerk is directed to serve a true copy of these
findings, conclusions, and recommendation on the parties. Pursuant to Title 28,
United States Code, § 636(b)(1), any party who desires to object to these findings,
conclusions, and recommendation must serve and file written objections within 14
days after being served with a copy. A party filing objections must specifically
identity those findings, conclusions, or recommendation to which objections are
being made. The District Court need not consider frivolous, conclusory, or general
objections. A party’s failure to file such written objections to these proposed
findings, conclusions, and recommendation will bar that party from a de novo
determination by the District Court. See Thomas v. Arn, 474 U.S. 140,150 (1985).
Additionally, any failure to file written objections to the findings, conclusions, and
recommendation within 14 days after being served with a copy will bar the
aggrieved party from appealing the factual findings and legal conclusions of the
Magistrate Judge that are accepted by the District Court, except upon grounds of
plain error. See Douglass v. United Servs. Auto. Ass’n, 79 F.3d 1415,1417 (5th Cir.
1996) (en banc).

7

